b©fc. 6

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
JUN 12 2020
MOLLY C. DWYER, CLERK
U S. COURT OF APPEALS

No.

JOE CERVANTES, Jr.,
Petitioner-Appellant,
v.
CHARLES L. RYAN; et al.,

19-16042

D.C. No. 3:17-cv-08279-DLR
District of Arizona,
Prescott ,
ORDER

'

Respondents-Appellees.
Before:

TROTT and N.R. SMITH, Circuit Judges.

This appeal is from the denial of appellant’s 28 U.S.C. § 2254 petition and
subsequent Federal Rule of Civil Procedure 59(e) motion. The request for a
certificate of appealability (Docket Entry Nos. 2 & 4) is denied because appellant
has not shown that “jurists of reason would find it debatable whether the petition
states a valid claim of the denial of a constitutional right and that jurists of reason
would find it debatable whether the district court was correct in its procedural
ruling.” Slack v. McDaniel, 529 U.S. 473, 484 (2000); see also 28 U.S.C.
§ 2253(c)(2); Gonzalez v. Thaler, 565 U.S. 134, 140-41 (2012); Miller-El v.
Cockrell, 537 U.S. 322, 327 (2003); United States v. Winkles, 795 F.3d 1134, 1143
(9th Cir. 2015); Lynch v. Blodgett, 999 F.2d 401, 403 (9th Cir. 1993) (order).
Any pending motions are denied as moot.
DENIED.

Af>PE/W O

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
AUG 6 2020
MOLLY C. DWYER, CLERK
U S. COURT OF APPEALS

No.

JOE CERVANTES, Jr.,
Petitioner-Appellant,
v.

19-16042

D.C. No. 3:17-cv-08279-DLR
District of Arizona,
Prescott
ORDER

CHARLES L. RYAN; et al.,
Respondents-Appellees.
Before:

McKEOWN and BADE, Circuit Judges.

Appellant’s motion for reconsideration en banc (Docket Entry No. 7) is
denied on behalf of the court. See 9th Cir. R. 27-10; 9th Cir. Gen. Ord. 6.11.
No further filings will be entertained in this closed case.

APf>eMDIX H

V '

Case 3:17-cv-08279-DLR Document 28 Filed 05/06/19 Page 1 of 1
*

1
2
3
4
5
6

IN THE UNITED STATES DISTRICT COURT

7

FOR THE DISTRICT OF ARIZONA

8
9

NO. CV-17-08279-PCT-DLR

Joe Cervantes, Jr.,
Petitioner,

10
11

v.

12

Charles L Ryan, et al.,

13

JUDGMENT IN A CIVIL CASE

Defendants.

14
15
16
17

Decision by Court. This action came for consideration before the Court. The
issues have been considered and a decision has been rendered.
IT IS ORDERED AND ADJUDGED adopting the Report and Recommendation

18

of the Magistrate Judge as the order of this Court.

19

Habeas Corpus pursuant to 28 U.S.C. § 2254 is denied and this action is hereby dismissed

20

with prejudice.
Brian D. Karth
District Court Executive/Clerk of Court

21
22
23
24

Petitioner’s Petition for Writ of

May 6, 2019
By

s/ D. Draper
Deputy Clerk

25
26
27
28

APPEI4&IK F

Case 3:17-cv-08279-DLR Document 23 Filed 02/28/19 Page 1 of 17

1
2
3
4
5
6
7
8
9
10
11

UNITED STATES DISTRICT COURT
DISTRICT OF ARIZONA
Joe Cervantes, Jr.,
Petitioner
-vsCharles L. Ryan, et al.,
Respondents.

CV-17-8279-PCT-DLR (JFM)
Report & Recommendation
on Petition for Writ of Habeas Corpus

I. MATTER UNDER CONSIDERATION

12

Petitioner, presently incarcerated in the Arizona State Prison Complex at Florence,

13

Arizona, filed a Second Amended Petition for Writ of Habeas Corpus pursuant to 28

14

U.S.C. § 2254 on May 10, 2018 (Doc. 13). On August 8, 2018, Respondents filed their

15

Limited Answer (Doc. 20). Petitioner filed a Reply on September 13, 2018 (Doc. 22).

16

The Petitioner's Petition is now ripe for consideration,

Accordingly, the

17

undersigned makes the following proposed findings of fact, report, and recommendation

18

pursuant to Rule 8(b), Rules Governing Section 2254 Cases, Rule 72(b), Federal Rules of

19

Civil Procedure, 28 U.S.C. § 636(b) and Rule 72.2(a)(2), Local Rules of Civil Procedure.

20
21

II. RELEVANT FACTUAL & PROCEDURAL BACKGROUND
A. FACTUAL BACKGROUND AND PROCEEDINGS AT TRIAL

22
In disposing of Petitioner’s direct appeal, the Arizona Court of Appeals
23
summarized the background as follows:
24
25
26
27
28

f 2 The offenses involved two victims, “KT” and “MR.” KT was the
daughter of one of Defendant's former girlfriends. MR was the niece
of another of Defendant's former girlfriends. At the time of the
offenses, KT was nine or ten years old and MR was eight or nine.
Both KT and MR occasionally spent the night at Defendant's home.
][ 3 Defendant committed five counts of sexual conduct with a minor
and one count of sexual exploitation of a minor against KT between
January 1, 2004 and April 2005. He committed the remainder of the
1

Case 3:17-cv-08279-DLR Document 23 Filed 02/28/19 Page 2 of 17
offenses against MR between January 15, 2004 and July 31, 2006.
Defendant videotaped all but one of the offenses. He hid the
videotape, but his fiance became suspicious, discovered the
videotape, and viewed it. She then copied it to a DVD and provided
the DVD to police.
If 4 At trial, Defendant's former fiance, the victims' mothers, and MR's
aunt identified Defendant and the victims in the video. They also
identified Defendant's home as the site of the offenses as well as other
scenes depicted in the video. KT, who was fifteen by the time of trial,
testified regarding the charge of sexual conduct with a minor that did
not appear in the video.
f 5 The jury found Defendant guilty on all counts. The trial court
sentenced Defendant to a presumptive, aggregate term of thirteen
consecutive terms of life imprisonment without a possibility of parole
for thirty-five years plus 234 years' imprisonment.

1
2
3
4
5
6
7
8

(Exhibit D, Mem. Dec. 12/20/11.)

i

(Exhibits to the Answer, Doc. 20, are referenced

9
herein as “Exhibit
10
11

B. PROCEEDINGS ON DIRECT APPEAL

12

Petitioner appealed, filing through counsel an Opening Brief (Exhibit B), raising

13

claims of: (1) denial of his 6th and 14th Amendment rights to self-representation; (2) denial

14

of due process under the 14th Amendment by admission of DVD annotated by prosecution;

15

(3) denial of his 5th, 6th, and 14th Amendment rights by a niultiplicitous indictment, lack of

16

substantial evidence, and illegal amendment of the indictment after the close of evidence;

17

and (4) denial of due process under the 14th Amendment because of vouching, presentation

18

of evidence and argument beyond the scope in rebuttal on closing argument, with

19

opportunity for Petitioner to reply.

20
21

On December 20, 2011, the Arizona Court of Appeals issued its Memorandum
Decision (Exhibit D) affirming Petitioner’s convictions and sentences.

22
23

Petitioner sought review by the Arizona Supreme Court, who summarily denied
review on May 30, 2012. (Exhibit E.)

24

Petitioner did not seek certiorari review by the U.S. Supreme Court. (Petition, Doc.

25
26
i

27
28

The copy of Exhibit D appended to the Answer is largely unreadable. Because the
decision is available at State v. Cervantes, 2011 WL 6652609 (2011), Plaintiff has not
objected, and the contents of the decision are not relevant to the disposition herein,
Respondents have not been ordered to supplement the record with a legible copy.
2

Case 3:17-cv-08279-DLR Document 23' Filed 02/28/19 Page 3 of 17.

1

13 at 3.)

2
3
4
5

6
7
8

9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24

25

C. PROCEEDINGS ON FIRST POST-CONVICTION RELIEF
Thereafter, on July 2, 2012, Petitioner filed his Notice of Post-Conviction Relief
(Exhibit F), which was dated June 21, 2012, but contains no representations as to its
delivery for filing. Counsel was appointed, who ultimately filed a “Notice of No Claim”
(Exhibit G), evidencing an inability to find an issue for review. Counsel was permitted
to withdraw, but was ordered to “continue to be available to the Defendant should his
services be needed.” Petitioner was granted leave to file a “pro se” PCR petition. (Exhibit
H, M.E. 2/17/12.)
Petitioner filed his “pro-per” Petition on March 19, 2013 (Exhibit J) reasserting the
four claims raised on direct appeal, and arguing: (5) ineffective assistance by limited
assistance from counsel; and (6) vouching by the prosecution.
In a minute order filed July 26,2013, the PCR court denied the petition, concluding
that with the exception of the ineffective assistance claim, the claims “are either precluded
or were raised in Defendant’s direct appeal.” (Exhibit L, M.O. 7/26/13 at 1.) The
ineffective assistance claim was rejected on the merits.
Petitioner did not seek review.
On October 4, 2016, Petitioner filed a Motion to Acquire Case File (Exhibit M),
which was denied on October 21, 2016 (Exhibit N).
D. STATE HABEAS AND SECOND POST-CONVICTION RELIEF
On December 21, 2017, Petitioner filed in the Yavapai County Superior Court a
Petition for Writ of Habeas Corpus (Exhibit O), which-included a certificate of mailing
through the prison mail system on December 18, 2017. The Petition argued a lack of
subject matter jurisdiction based on the U.S. Supreme Court’s exclusive jurisdiction over

26
27
28
3

Case 3:17-cv-08279-DLR Document 23 Filed 02/28/19 Page 4 of 17

1

cases in which a State is the party, under Article 3, Section 2 of the U.S. Constitution.2

2
3

On January 3, 2018, the trial court concluded the habeas petition was without merit
and dismissed it.

4

The court also construed it as a second petition for post-conviction relief under Rule

5

32 and dismissed it for failure to file a notice of post-conviction relief, and on the basis

6

that the claims were precluded because not previously raised. (Exhibit P, M.O. 1/3/18.)

7

Petitioner sought review from the Arizona Court of Appeals by filing a Petition for

8

Review on January 29, 2018 (Exhibit Q). On May 15,2018, review was granted but relief

9

denied. (Exhibit V, Mem. Dec. 5/15/18.)

10
11

E. PROCEEDINGS ON THIRD POST-CONVICTION RELIEF
During the pendency of review on Petitioner’s second PCR petition, on February

12
13
14
15
16

21, 2018, Petitioner filed with the Superior Court a Motion to Dismiss for Lack of Subject
Matter Jurisdiction (Exhibit R). On February 21, 2018, the court construed the filing as a
successive petition for post-conviction relief, and denied it as asserting the same issues
raised in the prior habeas petition. (Exhibit S, M.O. 2/21/18.)
Petitioner sought review by the Arizona Court of Appeals (Exhibit T), which was

17
18
19

denied on May 3, 2018. (Exhibit U, Mem. Dec. 5/3/18.)
F. PRESENT FEDERAL HABEAS PROCEEDINGS

20
21
22

Original Petition - Petitioner commenced the current case by filing his original
Petition for Writ of Habeas Corpus pursuant to 28 U.S.C. § 2254 on December 27, 2017
(Doc. 1). The Petition included a certification that it had been submitted for electronic

23
24
25
26
27
28

2 « In

all Cases affecting Ambassadors, other public Ministers and Consuls, and those in
which a State shall be Party, the supreme Court shall have original Jurisdiction.” U.S.
Const, art. Ill, § 2, cl. 2. But see U.S. Const, art. Ill, § 2, cl. 1 (limiting judicial power of
federal courts to, inter alia, “Controversies between two or more States;—between a State
and Citizens of another State;—between Citizens of different States;—between Citizens of
the same State claiming Lands under Grants of different States, and between a State, or
the Citizens thereof, and foreign States, Citizens or Subjects”, and thus not encompassing
criminal prosecutions by a state).
4

Case 3:17-cv-08279-DLR Document 23 Filed 02/28/19 Page 5 of 17

1
2
3

filing on December 26, 2017. (Id. at 8.)
On February 8,2018, Petitioner filed a Memorandum in Support (Doc. 8), asserting
his claim that the U.S. Supreme Court had exclusive jurisdiction over his case.

4

On February 14, 2108, the Court dismissed the Petition with leave to amend for

5

failure to properly utilize the Court approved form as required by Local Rule of Civil

6

Procedure 3.5(a). (Order 2/14/18, Doc. 10.)

7

First Amended Petition - On March 14, 2018, Petitioner filed his First Amended

8

Petition (Doc. 11). That petition was dismissed on April 12, 2018, with leave to amend,

9

for failure to name a proper respondent (Petitioner had substituted the Governor for the

10

Director of the Department of Corrections), and for failure to complete the required form.

11

(Order 4/12/18, Doc. 12.)

12

Second Amended Petition - On May 10, 2018, Petitioner filed his Second

13

Amended Petition (Doc. 13). Despite Petitioner’s failure to again properly complete the

14

required form (e.g. by providing the convicting court, case number, crimes, and length of

15

sentence), the Court ordered an answer, and summarized Petitioner’s four claims as:

16

1.

17
18
19
20

2.

21
22
23

3.

24
25
26
27
28

4.

“The State of Arizona imprisoned Petitioner, without due
process of law, and the State has brought NO criminal case ‘at
law’ against Petitioner under the provisions of the Arizona
Constitution. This denied Petitioner the right to not be
deprived of life, liberty, or property without due process of
law, and violated Section 4 of Article 2 of the Arizona
Constitution, and Amendments 6 and 14 to the U.S.
Constitution.”
“The State of Arizona provided Petitioner NO constitutional
notice of the nature and cause of any charge. This denied
Petitioner the right to be informed of the nature and cause of
the accusation, and violation Section 24 of Article 2 of the
Arizona Constitution, and Amendments 6 and 14 to the U.S.
Constitution.”
“The State of Arizona provided Petitioner NO constitutional
counsel. This denied Petitioner the right to counsel, and
violated Section 24 of Article 2 of the Arizona Constitution,
and Amendments 6 and 14 to the U.S. Constitution.”
“The State of Arizona has provided Petitioner NO
constitutional speedy and public trial, by an impartial jury.
This denied Petitioner the right to trial by jury, and violated
Section 24 of Article 2 of the Arizona Constitution, and
Amendments 6 and 14 to the U.S. Constitution.”

(Order 5/31/18, Doc. 14.)
5

Case 3:17-cv-08279-DLR Document 23 Filed 02/28/19 Page 6 of 17

1

Response - On August 8, 2018 Respondents filed their Limited Answer (Doc. 20),

2

arguing that Petitioner’s Petition is barred by the statute of limitations, and that Petitioner

3

has procedurally defaulted his state remedies on his claims.

4

Reply - On September 13, 2018, Petitioner filed his Reply (Doc. 22). Petitioner

5

argues: (1) Respondents fail to show a proper conviction because the state’s Superior Court

6

was acting as a de facto federal court; (2) there was no contract between Petitioner and the

7

State of Arizona, and thus no subject matter jurisdiction; (3) he is entitled to equitable

8

tolling because of defects in the indictment and notice of the charges; (id. at 1) (4) there

9

were various defects in the state proceedings which were “withheld and concealed,” i.e.

•10

various legal defenses (id. at 2-9); (3) because of various defects in the indictment, and

11

other legal defenses, his conviction was not properly entered and thus his limitations

12

period has not commenced (id. at 9-13); and (4) the denial of his habeas petition would

13

constitute a fundamental miscarriage of justice (id. at 13).

/

14
15
III. APPLICATION OF LAW TO FACTS

16
17

A. TIMELINESS
1. One Year Limitations Period

18

Respondents assert that Petitioner’s Petition is untimely. As part of the Anti-

19

Terrorism and Effective Death Penalty Act of 1996 ("AEDPA"), Congress provided a 1-

20

year statute of limitations for all applications for writs of habeas corpus filed pursuant to

21

28 U.S.C. § 2254, challenging convictions and sentences rendered by state courts. 28

22
23

U.S.C. § 2244(d). Petitions filed beyond the one year limitations period are barred and
must be dismissed. Id.

\

24
25

2. Commencement of Limitations Period

26

a.

27

The one-year statute of limitations on habeas petitions generally begins to run on

28

"the date on which the judgment became final by conclusion of direct review or the

Conviction Final

6

a

Case 3:17-cv-08279-DLR Document 23 Filed 02/28/19 Page 7 of 17

1

expiration of the time for seeking such review." 28 U.S.C. § 2244(d)(1)(A).3

2

Petitioner argues a final judgement cannot be shown because Respondents have

3

failed “to produce and submit any indictment filed in the ‘Superior Court of [Yavapai]

4

(sic) County, State of Arizona.” (Reply, Doc. 22 at 9-10.) But Petitioner posits no reason

5

why an indictment of any kind need be shown. An indictment is the early stages of the

6

conviction process; finality is at its tail. To the extent that Petitioner contends that there

7

was a defect in the indictment which renders any judgment invalid, Petitioner attempts to

8

subsume a validity requirement in the statute of limitations that would render it largely

9

meaningless; if finality didn’t attach if the judgment were not sustainable, then a defendant

10

could avoid the statute of limitations simply by asserting a defect in the proceedings.

11

Section 2244(d) does not require that the judgement of conviction be valid, only that it

12

have been entered and have become procedurally final.

13

For the same reason, the commencement (or expiration) of the limitations period is

14

not affected by Petitioner’s other arguments about the validity of his conviction, including:

15

(1) the U.S. Supreme Court has exclusive jurisdiction because the state is a party; (2) that

16

the Governor of Arizona (as the chief executive) was required to act as prosecutor; (3) or

17

that the styling of the prosecution was improper (e.g. by designating the state in its

18

“corporate capacity”, or failing to properly name Petitioner with proper capitalization); (4)

19

that the state statutes were invalid; (5) that Petitioner’s rights were denied in the

20

prosecution; and (6) that the absence of a contract with Petitioner precluded a valid

21

conviction. (Reply, Doc. 22 at 10-13.)

22
23

Here, Petitioner’s direct appeal remained pending through May 30, 2012, when the
Arizona Supreme Court denied his Petition for Review. (Exhibit E.)

24

For purposes of 28 U.S.C. § 2244, “direct review" includes the period within which

25

a petitioner can file a petition for a writ of certiorari from the United States Supreme Court,

26
27
28

3 Later commencement times can result from a state created impediment, newly recognized
constitutional rights, and newly discovered factual predicates for claims. See 28 U.S.C. §
2244(d)(l)(B)-(D). Except as discussed hereinafter, Petitioner proffers no argument that
any of these apply.
7

Case 3:17-cv-08279-DLR Document 23 Filed 02/28/19 Page 8 of 17

1

whether or not the petitioner actually files such a petition. Gonzalez v. Thaler, 565 U.S.

2

134, 150 (2012). The rules of the Supreme Court of the United States, requires that a

3

petition for a writ of certiorari be filed “within 90 days after entry of the order denying

4

discretionary review.” U.S.S.Ct. R. 13(1). Accordingly, because Petitioner did not file a

5

petition for a writ of certiorari, his conviction became final on Tuesday, August 28, 2012,

6

90 days after the Arizona Supreme Court denied review.4

7
8

b.

9

Although the conclusion of direct review normally marks the beginning of the

10

statutory one year, section 2244(d)(1)(D) does provide an alternative of “the date on which

11

the factual predicate of the claim or claims presented could have been discovered through

12

the exercise of due diligence.” Accordingly, where despite the exercise of due diligence

13

a petitioner was unable to discover the factual predicate of his claim, the statute does not

14

commence mnning on that claim until the earlier of such discovery or the elimination of

15

the disability which prevented discovery.

16

until actual discovery, but only until the date on which it “could have been discovered

17

through the exercise of due diligence.” 28 U.S.C. § 2244(d)(1)(D).

New Facts

However, the commencement is not delayed

18

In his Reply, Petitioner argues that various “FACTS” were concealed, including:

19

(1) there was no victim; (2) the offense was not a dangerous crime against children; (3)

20

offenses were double counted; (4) the indictment charged a dangerous felony (e.g. use of

21

a deadly weapon, etc.); (5) the state statutes are unconstitutional; (6) there was no contract

22

between Petitioner and the State of Arizona; (7) Petitioner had no liability under the state

23

statutes; (8) the state lacked authority to charge Petitioner; (9) that State was acting in a

24

corporation capacity; (10) the State had no right to sue; (11) the State was not acting in its

25

governmental capacity; (12) Petitioner was not named in the indictment; (13) the State had

26
27
28

4 Although acknowledging the May 30, 2018 Arizona Supreme Court denial, and the 90
day time limit, Respondents inexplicably calculate a certiorari deadline of August 13,
2018. (Answer, Doc. 20 at 5.)
8

Case 3:17-cv-08279-DLR Document 23 Filed 02/28/19 Page 9 of 17

1

no authority to bring Petitioner to Court; (14) the charges could not lawfully be found by

2

the Grand Jury; (15) the indictment violated the Arizona Constitution; (16) Petitioner was

3

denied his state and federal constitutional rights; (17) the state court was acting as a federal

4

court; (18) commercial law governs the case; (19) the facts alleged in the indictment did

5

not establish the offenses; and (20) the court lacked subject matter jurisdiction. (Reply,

6

Doc. 22 at 2-3.)

7

Regarding the first “fact,” that there was no victim, Petitioner fails to show how

8

this was concealed, in light of the fact that the purported victim(s) were depicted,

9

identified/and or testified at trial. To the extent that Petitioner contends that somehow they

10
11
12
13
14
15
16

did not legally qualify as victims, that is not a “fact” but a legal theory.
Similarly, the remainder of these are not “factual predicates” of claims, but legal
theories for claims.
Nor does Petitioner show the exercise of due diligence to discover these matters
before his federal limitations period expired.
Accordingly, Petitioner is not entitled to the benefit of a delayed commencement
under 28 U.S.C. § 2244(d)(1)(D).

17
18

c.

19

Therefore, Petitioner’s one year began running on August 20, 2012, and without

20

Conclusion re Commencement

any tolling would have expired on August 19, 2013.

21
22
23
24
25
26
27
28

3. Timeliness Without Tolling
Petitioner’s Second Amended Petition (Doc. 13) was filed on May 10, 2018, the
same date Petitioner declared it was placed in the prison mailing system. {Id. at 22.)
As determined in subsection (1) above, without any tolling Petitioner’s one year
habeas limitations period expired no later than Wednesday, August 28, 2013, making his
Petition over four years delinquent.
Relation Back - Federal Rule of Civil Procedure 15 governs the amendment of
9

Case 3:17-cv-08279-DLR Document 23 Filed 02/28/19 Page 10 of 17

1

habeas petitions. Mayle v. Felix, 545 U.S. 644, 655 (2005). Rule 15(c) provides that an

2

“amendment of a pleading relates back to the date of the original pleading when ... (2)

3

the claim or defense asserted in the amended pleading arose out of the conduct, transaction,

4

or occurrence set forth or attempted to be set forth in the original pleading.” However, an

5

amended petition “does not relate back (and thereby escape AEDPA's one-year time limit)

6

when it asserts a new ground for relief supported by facts that differ in both time and type

7

from those the original pleading set forth.” Mayle, 545 U.S. at 650. The original and

8

amended claims must, instead, be “tied to a common core of operative facts.” Id. at 664.

9

Because it does not affect the outcome, the undersigned assumes for purposes of

10

this Report and Recommendation that Petitioner’s Second Amended Petition relates back

11

to the filing of his original Petition (Doc. 1). That petition was filed on December 27,

12

2017.

13

However, the Petition reflects it was submitted for electronic filing on December

14 26, 2017. “In determining when a pro se state or federal petition is filed, the ‘mailbox’
15 rule applies. A petition is considered to be filed on the date a prisoner hands the petition
16 to prison officials for mailing.” Porter v. Ollison, 620 F.3d 952, 958 (9th Cir. 2010).
17 Accordingly, the undersigned assumes, for purposes of this Report and Recommendation,
18 in Petitioner’s favor, that the original Petition should be deemed filed as of December 26,
19 2017.
20
21

With those assumptions arguendo in Petitioner’s favor, Petitioner’s petition would
still be over four years delinquent.

22
23
24
25
26
27
28

4. Statutory Tolling
The AEDPA provides for tolling of the limitations period when a "properly filed
application for State post-conviction or other collateral review with respect to the pertinent
judgment or claim is pending." 28 U.S.C. § 2244(d)(2). This provision only applies to
state proceedings, not to federal proceedings. Cfuncan v. Walker, 533 U.S. 167 (2001).
Mailbox Rule - For purposes of calculating tolling under § 2244(d), the federal
10

Case 3:17-cv-08279-DLR Document 23 Filed 02/28/19 Page 11 of 17

1

prisoner “mailbox rule” applies. Under this rule, a prisoner’s state filings are deemed

2

“filed” (and tolling thus commenced) when they are delivered to prison officials for

3

mailing. In Anthony v. Cambra, 236 F.3d 568 (9th Cir. 2000), the Ninth Circuit noted:

4

[I]n Saffold v. Newland, 224 F.3d 1087 (9th Cir.2000), we squarely
held that the mailbox rule applies with equal force to the filing of state
as well as federal petitions, because "[a]t both times, the conditions
that led to the adoption of the mailbox rule are present; the prisoner
is powerless and unable to control the time of delivery of documents
to the court." Id. at 1091.

5
6
7
Id. at 575.
8

Application to Petitioner - Petitioner’s limitations period commenced running on
9
August 29, 2012. Petitioner’s First PCR proceeding was commenced on July 2, 2012,
10
before his limitations period began running. It remained pending until July 26,2013, when
11
the PCR court dismissed the proceeding.

(Exhibit L.)' Thus, Petitioner’s habeas

12
limitations period was tolled from its commencement through July 26, 2013, roughly
13
eleven months. It commenced running again on July 27, 2013, and expired one year later
14
on July 26, 2014. July 26, 2014 was a Saturday. For purposes of counting time for a
15
federal statute oflimitations, the standards in Federal Rule of Civil Procedure 6(a) apply.
16
Patterson v. Stewart, 251 F.3d 1243, 1246 (9th Cir. 2001). Under that Rule, because the
17
last day was a weekend, the limitations deadline was extended to the following Monday,
18
July 28, 2014.
19
Petitioner’s next PCR proceeding was not commenced until December 21, 2017,
20
when Petitioner filed his second PCR petition/state habeas petition (Exhibit O).5 At that
21
time, his one year had been expired for over three years. Once the statute has run, a
22
subsequent post-conviction or collateral relief filing does not reset the running of the one
23
year statute. Jiminez v. Rice, 276 F.3d 478, 482 (9th Cir. 2001); Ferguson v. Palmateer,
24
321 F.3d 820, 823 (9th Cir. 2003).

Accordingly, Petitioner has no statutory tolling

25
26
27
28

5 That petition was dated December 18, 2017. (Exhibit O at “6.”) Even if deemed
deposited in the prison mail system on that date, and thus subject to the prison mailbox
rule, the three days difference would not render the filing early enough to result in any
tolling.
11

Case 3:17-cv-08279-DLR Document 23 Filed 02/28/19 Page 12 of 17 '

1

resulting from his second PCR/state habeas proceeding, or from his subsequent third PCR

2

proceedings, and his limitations period expired on July 28, 2014.

3

It is true that in the interim between the dismissal of his first PCR petition and the

4

filing of his second PCR/habeas petition, Petitioner filed a Motion to Acquire Case File

5

(Exhibit M). However, “discovery motions [that] ‘did not challenge his conviction,’ but

6

simply ‘sought material he claimed might be of help’ in later state proceedings” does not

7

result in statutory tolling. Ramirez v. Yates, 571 F.3d 993, 1000 (9th Cir. 2009). But see

8

Johnson v. Knowles, 116 Fed. Appx. 822, 823 (9th Cir. 2004) (concluding that a filing

9

denominated as a motion for discovery, liberally construed, may sufficiently assert claims

10

attacking a judgment to qualify for tolling). Even assuming that this filing qualified as an

11

“application for State post-conviction or other collateral review with respect to the

12

pertinent judgment or claim,” it was not filed until October, 2016, over two years after

13

Petitioner’s statute of limitations expired.

14
15

Consequently, even with all available statutory tolling, Petitioner’s original habeas
petition was over three years delinquent.

16
17
18
19
20
21
22
23
24
25
26
27
28

5. Equitable Tolling
"Equitable tolling of the one-year limitations period in 28 U.S.C. § 2244 is available
in our circuit, but only when ‘extraordinary circumstances beyond a prisoner's control
make it impossible to file a petition on time' and ‘the extraordinary circumstances were
the cause of his untimeliness.'" Laws v. Lamarque, 351 F.3d 919, 922 (9th Cir. 2003).
To receive equitable tolling, [t]he petitioner must establish two
elements: (1) that he has been pursuing his rights diligently, and (2)
that some extraordinary circumstances stood in his way. The
petitioner must additionally show that the extraordinary
circumstances were the cause of his untimeliness, and that the
extraordinary circumstances ma[de] it impossible to file a petition on
time.
Ramirez v. Yates, 571 F.3d 993, 997 (9th Cir. 2009) (internal citations and quotations
omitted). “Indeed, ‘the threshold necessary to trigger equitable tolling [under AEDPA] is
very high, lest the exceptions swallow the rule.’ ” Miranda v. Castro,292 F.3d 1063, 1066
12

Case 3:17-cv-08279-DLR Document 23 Filed 02/28/19 Page 13 of 17

1

(9th Cir. 2002) (quoting United States v. Marcello, 212 F.3d 1005, 1010 (7th Cir.).

2

Even if extraordinary circumstances prevent a petitioner from filing for a time,

3

equitable tolling will not apply if he does not continue to diligently pursue filing

4

afterwards. “If the person seeking equitable tolling has not exercised reasonable diligence

5

in attempting to file after the extraordinary circumstances began, the link of causation

6

between the extraordinary circumstances and the failure to file is broken, and the

7

extraordinary circumstances therefore did not prevent timely filing.” Valverde v. Stinson,

8

224 F.3d 129,134 (2nd Cir. 2000). Ordinarily, thirty days after elimination of a roadblock

9

should be sufficient. See Guillory v. Roe, 329 F.3d 1015, 1018, n.l (9th Cir. 2003).

10

Petitioner bears the burden of proof on the existence of cause for equitable tolling.

11

Pace v. DiGuglielmo, 544 U.S. 408, 418 (2005); Rasberry v. Garcia, 448 F.3d 1150, 1153

12

(9th Cir. 2006) (“Our precedent permits equitable tolling of the one-year statute of

13

limitations on habeas petitions, but the petitioner bears the burden of showing that

14

equitable tolling is appropriate.”).

15

Petitioner argues he is entitled to equitable tolling because: (1) the state deprived

16

him of his right to be informed of the charges; and (2) he had no knowledge of the facts

17

necessary to constitute the offenses of convictions or opportunity to object to them.

18

(Reply, Doc. 22 at 1.)

19

Petitioner fails to show how any deficiency in the indictment kept him from filing

20

his federal habeas petition. At best, this is a backhanded attempt to rely on § 2244(d)(1)(D)

21

(newly discovered factual predicates), which fails for the reasons discussed hereinabove.

22

Moreover, any limitation in Petitioner’s notice of the charges would have been apparent

23

at least from the time of Petitioner’s conviction.

24

Petitioner’s lack of legal understanding on the elements of the offenses or on his

25

potential defenses does not justify equitable tolling. "[Ijgnorance of the law, even for an

26

incarcerated pro se petitioner, generally does not excuse prompt filing."

27

Johnson, 174 F.3d 710, 714 (5th Cir. 1999). See also Rasberry v. Garcia, 448 F.3d 1150,

28

1154 (9th Cir. 2006) (“a pro se petitioner's lack of legal sophistication is not, by itself, an
13

Fisher v.

Case 3:17-cv-08279-DLR Document 23 Filed 02/28/19 Page 14 of 17

1

extraordinary circumstance warranting equitable tolling”).

2
3

Accordingly, Petitioner fails to show extraordinary circumstances that prevented
him from filing a timely federal habeas petition.

4
5

6. Actual Innocence
To avoid a miscarriage of justice, the habeas statute of limitations in 28 U.S.C. §

6
7
8
9
10
11
12
13
14
15

2244(d)(1) does not preclude “a court from entertaining an untimely first federal habeas
petition raising a convincing claim of actual innocence.” McQuiggin v. Perkins, 133 S.Ct.
1924, 1935 (2013). To invoke this exception to the statute of limitations, a petitioner
“’must show that it is more likely than not that no reasonable juror would have convicted
him in the light of the new evidence.’” Id. at 1935 (quoting Schlup v. Delo, 513 U.S. 298,
327 (1995)).. This exception, referred to as the “Schlup gateway,” applies “only when a
petition presents ‘evidence of innocence so strong that a court cannot have confidence in
the outcome of the trial unless the court is also satisfied that the trial was free of
nonharmless constitutional error.

20
21
22
23
24
25
26
27

Id. at 1936 (quoting Schlup, 513 U.S. at 316).

Petitioner does argue that because of his various claimed legal errors, a denial of

17

19

??

Petitioner makes no such claim of new evidence of actual innocence.

16

18

5

his

petition

will result

in “MANIFEST

ERROR

and

a

FUNDAMENTAL

MISCARRIAGE OF JUSTICE.” (Reply, Doc. 22 at 13 (emphasis in original).) But
neither the statutes nor any case law have expanded the exceptions to the habeas statute of
limitations beyond equitable tolling and actual innocence based on new evidence of factual
innocence. “It is important to note in this regard that ‘actual innocence’ means factual
innocence, not mere legal insufficiency.” Bousley v. U.S., 523 U.S. 614, 623-624 (1998).
“[T]he miscarriage of justice exception is concerned with actual as compared to legal
innocence.” Sawyer v. Whitley, 505 U.S. 333, 339 (1992).
//
//

7. Summary re Statute of Limitations

28
14

Case 3:17-cv-08279-DLR Document 23 Filed 02/28/19 Page 15 of 17

1

Taking into account the available statutory tolling, Petitioner’s one year habeas

2

limitations period commenced running no later than July 27, 2013, and expired on

3

Monday, July 28, 2014, making his original Petition, assumed to be deemed filed as of

4

December 18, 2017 over three years delinquent.

5

additional statutory tolling, and no basis for equitable tolling or actual innocence to avoid

6

the effects of his delay. Consequently, the Petition must be dismissed with prejudice.

Petitioner has shown no basis for

7
8
9
10

B. OTHER DEFENSES
Because the undersigned concludes that Petitioner’s Petition is plainly barred by
the statute of limitations, Respondents other defenses are not reached.

11
IV. CERTIFICATE OF APPEALABILITY

12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

Ruling Required - Rule 11(a), Rules Governing Section 2254 Cases, requires that
in habeas cases the “district court must issue or deny a certificate of appealability when it
enters a final order adverse to the applicant.” Such certificates are required in cases
concerning detention arising “out of process issued by a State court”, or in a proceeding
under 28 U.S.C. § 2255 attacking a federal criminal judgment or sentence. 28 U.S.C. §
2253(c)(1).
Here, the Petition is brought pursuant to 28 U.S.C. § 2254, and challenges detention
pursuant to a State court judgment. The recommendations if accepted will result in
Petitioner’s Petition being resolved adversely to Petitioner. Accordingly, a decision on a
certificate of appealability is required.
Applicable Standards - The standard for issuing a certificate of appealability
(“COA”) is whether the applicant has “made a substantial showing of the denial of a
constitutional right.” 28 U.S.C. § 2253(c)(2). “Where a district court has rejected the
constitutional claims on the merits, the showing required to satisfy § 2253(c) is
straightforward: The petitioner must demonstrate that reasonable jurists would find the
district court’s assessment of the constitutional claims debatable or wrong.” Slack v.
15

Case 3:17-cv-08279-DLR Document 23 Filed 02/28/19 Page 16 of 17

1

McDaniel, 529 U.S. 473, 484 (2000). “When the district court denies a habeas petition on

2

procedural grounds without reaching the prisoner’s underlying constitutional claim, a

3

COA should issue when the prisoner shows, at least, that jurists of reason would find it

4

debatable whether the petition states a valid claim of the denial of a constitutional right

5

and that jurists of reason would find it debatable whether the district court was correct in

6

its procedural ruling.” Id.

i

7

Standard Not Met - Assuming the recommendations herein are followed in the

8

district court’s judgment, that decision will be on procedural grounds. Under the reasoning

9

set forth herein, jurists of reason would not find it debatable whether the district court was

10
11
12

correct in its procedural ruling.
Accordingly, to the extent that the Court adopts this Report & Recommendation as
to the Petition, a certificate of appealability should be denied.

13
V. RECOMMENDATION

14
15

IT IS THEREFORE RECOMMENDED that the Petitioner's Second Amended

16

Petition for Writ of Habeas Corpus, filed May 10, 2018 (Doc. 13) be DISMISSED WITH

17

PREJUDICE.

18

IT IS FURTHER RECOMMENDED that, to the extent the foregoing findings

19

and recommendations are adopted in the District Court’s order, a Certificate of

20

Appealability be DENIED.

21
22

VI. EFFECT OF RECOMMENDATION

23

This recommendation is not an order that is immediately appealable to the Ninth

24

Circuit Court of Appeals. Any notice of appeal pursuant to Rule 4(a)(1), Federal Rules of

25

Appellate Procedure, should not be filed until entry of the district court's judgment.

26

However, pursuant to Rule 72(b), Federal Rules of Civil Procedure, the parties shall

27

have fourteen (14) days from the date of service of a copy of this recommendation within

28

which to file specific written objections with the Court. See also Rule 8(b), Rules
16

/

/

Case 3:17-cv-08279-DLR Document 23 Filed 02/28/19 Page 17 of 17

1

Governing Section 2254 Proceedings.

Thereafter, the parties have fourteen (14) days

2

within which to file a response to the objections. Failure to timely file objections to any

3

findings or recommendations of the Magistrate Judge will be considered a waiver of a

4

party's right to de novo consideration of the issues, see United States v. Reyna-Tapia, 328

5

F.3d 1114, 1121 (9th Cir. 2003){en banc), and will constitute a waiver of a party's right to

6

appellate review of the findings of fact in an order or judgment entered pursuant to the

7

recommendation of the Magistrate Judge, Robbins v. Carey, 481 F.3d 1143, 1146-47 (9th

8

Cir. 2007).

9

In addition, the parties are cautioned Local Civil Rule 7.2(e)(3) provides that

10

“[ujnless otherwise permitted by the Court, an objection to a Report and Recommendation

11

issued by a Magistrate Judge shall not exceed ten (10) pages.”

12
13
14

Dated: February 28, 2019

James F. Metcalf
United States Magistrate Judge

17-8279r RR 1902 14 on HC-.docx

15
16
17
18
19
20
21
22
23
24
25
26
27
28
17

Additional material
from this filing is
available in the
Clerk's Office.

